                                                               Issue Date
                                                                       August 24, 2007
                                                               Audit Report Number
                                                                            2007-BO-1007




TO:         Robert C. Paquin, Director, Community of Planning and Development, 1AD


FROM:       John A. Dvorak, Regional Inspector General for Audit, 1AGA

SUBJECT: The City of Fall River, MA, Generally Administered Its Block Grant and HOME
         Programs in Accordance with HUD Requirements


                                  HIGHLIGHTS
 What We Audited and Why



             We reviewed the Community Development Block Grant (CDBG) and HOME
             Investment Partnerships (HOME) programs administered by the Community
             Development Agency, City of Fall River, Massachusetts (City) as part of our
             annual audit plan.

             Our audit objective was to determine whether the City administered its CDBG
             and HOME programs in compliance with U. S. Department of Housing and Urban
             Development (HUD) requirements. We focused on whether the City: (1) had
             adequate internal controls over its management process, accounting, and data
             processing; (2) used CDBG funds for national objectives; (3) used CDBG and
             HOME program funds for eligible activities and were adequately supported; and
             (4) properly accounted for CDBG and HOME program income.


 What We Found


             The City generally administered its CDBG and HOME programs in compliance
             with HUD requirements. The City’s (1) internal controls over its management
             process, accounting, and data processing were adequate, (2) CDBG funds were
           used for national objectives, (3) CDBG and HOME program funds were used for
           eligible activities and were adequately supported, and (4) CDBG and HOME
           program income was properly accounted for. Thus, the report contains no formal
           recommendations and no further action is necessary. However, the City has more
           than $3 million in unobligated HOME funds and could benefit by developing
           partnerships with additional Community Housing Development Organizations
           (CHDOs) to use these funds to develop additional housing for low to moderate
           income families.


Auditee’s Response



           We provided City officials with a draft audit report on August 10, 2007, and
           requested a response by August 21, 2007. We held an exit conference with City
           officials on August 15, 2007, to discuss the draft report, and we received their
           written comments on August 20, 2007. The auditee’s response can be found in
           appendix A of this report.

           The City agreed with the finding in the report, and indicated that they are actively
           working to expand it’s use of the HOME funds and help more low and moderate
           income families.




                                             2
           TABLE OF CONTENTS

Background and Objectives                                         4

Results of Audit                                                  5
    Finding 1: The Block Grant and HOME Programs were Generally
    Administered in Accordance with HUD Requirements

Scope and Methodology                                             8

Internal Controls                                                 10

Appendixes
   A. Auditee Comments                                            11




                                  3
                      BACKGROUND AND OBJECTIVES

Congress designed the Community Development Block Grant (CDBG) program in 1974 for the
development of viable urban communities by providing decent housing, supporting a suitable
living environment, and expanding economic opportunities principally for persons of low and
moderate income. Congress designed the HOME Investment Partnerships (HOME) program in
1990 for: the expansion of the supply of affordable housing; the strengthening of the abilities of
local governments to design and implement strategies for achieving adequate supplies of decent,
affordable housing; the provision of both financial and technical assistance to cities; and the
strengthening of partnerships among all levels of government and the private sector in the
production and operation of affordable housing. The cities must set aside at least 15 percent of
its annual HOME allocation for Community Housing Development Organizations (CHDOs).
These non-profit organizations utilize this funding to create housing opportunities for low and
moderate-income persons. Historically, the City of Fall River utilized this funding source to
rehabilitate current housing stock and provide opportunity for first time homebuyers.

The City receives between $4.5 and $5 million annually in Community Planning and
Development funding. In fiscal years 2004 to 2006, the City spent more than $9 million in
CDBG funds and more than $3 million in HOME funds, as follows:

                             Year          CDBG            HOME
                             2004          $3,771,277      $ 659,725
                             2005          $3,429,009      $1,319,828
                             2006          $2,789,805      $1,337,589
                            Totals        $9,990,091       $3,317,142

The City used the CDBG funding to assist public service entities; upgrade public facilities for
roads, water systems and fire equipment; renovate private homes for low income homeowners;
and provide economic development loans to local businesses. The City used the HOME funding
to purchase and renovate multi-family homes for low income tenants.

Our audit objective was to determine whether the Agency complied with HUD regulations in the
administration of its Community Development Block Grant and HOME programs. Specifically,
we determined whether the City (1) had adequate internal controls over its management process,
accounting, and data processing, (2) used CDBG funds for national objectives, (3) used CDBG
and HOME funds for eligible activities and were adequately supported, and (4) properly
accounted for CDBG and HOME program income.




                                                4
                                RESULTS OF AUDIT

Finding 1: The CDBG and HOME Programs were Generally Administered in
Accordance with HUD Requirements

The City generally administered its CDBG and HOME programs in accordance with HUD
requirements. Specifically, (1) internal controls and the financial management system were
adequate; (2) the City ensured that CDBG activities met at least one of the national objectives;
(3) expenditures of CDBG and HOME program funds were eligible and adequately supported;
and (4) program income for CDBG and HOME programs was properly accounted for. However,
the City could benefit by developing additional partnerships with Community Housing
Development Organizations (CHDOs) to use its HOME funds to develop more housing under its
rental housing rehabilitation program.



 City’s Internal Controls Were
 Adequate


              The City’s internal controls over its management process, accounting, and data
              processing were adequate. The testing conducted of internal control procedures
              related to CDBG activities, HOME loans, procurement and administrative
              expenditures found that the controls were functioning as designed. Also, the
              City’s financial management system properly accounted for the transactions
              tested, and its accounting policies and procedures reasonably assured that
              program implementation for both programs was consistent with HUD
              requirements.


 CDBG Activities Met National
 Objectives


              CDBG-funded activities totaling $1,297,252 were reviewed for the (1)
              infrastructure improvement program, (2) community development recreation
              program, and (3) fire equipment and facilities upgrading to determine whether
              these three activities met the national objectives. The review found that each
              activity met a national objective. Three CDBG-funded activities totaling
              $738,944 were also reviewed for (1) office of economic development, (2) walking
              beat police program, and (3) Flint senior drop-in center to determine whether
              accomplishments met the performance goals outlined in the subrecipient
              agreements. The accomplishments for these three activities did meet the
              performance goals in the subrecipient agreements. For the same three activities,
              we traced reported accomplishments from the Consolidated Annual Performance

                                               5
             Evaluation Report (CAPER) to the City’s records to ensure the CAPER was in
             agreement with City’s records. We also determined that the City had been
             adequately monitoring the activities of the subrecipients.



CDBG and HOME
Expenditures Were Eligible and
Supported


             The City’s procurement practices were evaluated through a review of construction
             procurements of $11,597,912 under CDBG infrastructure improvement program,
             and six procurements of $871,524 under the HOME loan. The review found that
             the City's procurement policies were consistent with HUD requirements. Also,
             the CDBG procurements were for infrastructure street repairs and improvements,
             and the HOME procurements were for housing rehabilitation or new construction
             work, and all the procurements were eligible construction related activities.

             Six HOME loans totaling $2,212,377 were reviewed which included two loans
             administered by the City’s one active Community Housing Development
             Organization (CHDO) and four loans to private owners. We examined whether
             the (1) loans for the CHDO properties and to private owners were supported by
             subrecipient agreements or loan agreements; (2) City ensured that the loan
             recipients met the performance goals in its subrecipient/loan agreements; (3) City
             appropriately protected its investment through affordability restrictions and
             recorded the loans; (4) City ensured that families who are tenants in HOME-
             assisted housing were income eligible; and (5) loan files contained routine
             inspection reports. The review did not disclose any exceptions. We also found
             that the City met its matching requirements and is leveraging loan funds from
             private sources.

             In addition, the planning and administrative costs for the HOME program were
             reviewed to ensure the costs were not in excess of the 10 percent limit. The
             review of planning and administrative expenses found that costs were not in
             excess of the 10 percent limit. We also selected a sample of $232,511 in expenses
             for equipment, travel, and rent paid to a third party to determine if they were
             eligible and reasonable. The expenses examined were eligible and reasonable.


CDBG and HOME Program
Income Was Properly
Accounted For


             Program income earned under CDBG and HOME programs was reviewed for
             assurance that funds were properly accounted for and used in accordance with
             program requirements. The 2006 CAPER identified $113,268 in CDBG program

                                              6
             income. The CDBG program income was adequately supported and was properly
             recorded in the City’s accounting records. We also tested the program income to
             ensure that it was used for eligible activities.

             The City’s HOME income and its pattern of spending program income were
             reviewed. The City generated $4,901,297 in HOME program income through
             loan repayments. We wanted to ensure that the City was spending program
             income before spending its program entitlement funds and HOME funds were
             obligated within two years and expended within five years, as required by HUD
             regulations. The City’s expenditure patterns met these requirements. We also
             found that the City adequately recorded HOME program income and made
             progress spending the income before using its entitlements.


City Could Benefit by
Increasing Use of HOME Funds


             The City had $3,034,342 in unobligated HOME funds available at April 3, 2007.
             The City indicated that there had been a lower demand the past two years for
             funding for rental rehabilitation work. The combination of significant program
             income and lower demand resulted in significant unobligated and unspent HOME
             fund balances. The City also indicated that it has been working diligently to
             develop housing under its rental housing rehabilitation program. The City has one
             active CHDO and recently retained another experienced CHDO to assist them in
             expanding this program. The City could benefit by working with other non-profit
             agencies to create additional certified CHDOs to develop more housing under its
             rental housing rehabilitation program.


Conclusion


        The City generally administered its CDBG and HOME programs in accordance with
        HUD requirements. While the City has been spending HOME funds in accordance
        with regulatory requirements, the City could benefit by using the available HOME
        funds to expand its program. We encourage the City to actively pursue new CHDO
        partnerships and accelerate their disbursements of HOME funds to help more low and
        moderate income families.




                                             7
                         SCOPE AND METHODOLOGY

We performed an audit of the CDBG and HOME programs administered by the City. Our
fieldwork was completed at the City offices located at One Government Center, Fall River,
Massachusetts from May to June 2007. Our audit generally covered the period July 2005 to June
2007, and was extended when necessary to meet our objectives. To accomplish our audit
objectives, we:

       •   Reviewed applicable legislation, regulations, HUD handbooks/guidebooks, and HUD
           notices.
       •   Reviewed the City’s policies and procedures for the organization’s accounting
           controls, procurement practices, and monitoring policies to ensure they were
           consistent with HUD requirements.
       •   Evaluated the internal controls and conducted sufficient tests to determine whether
           controls were functioning as intended.
       •   Identified and examined controls over computer systems to identify sources of data,
           the relevance of data, and the reliability of the systems. Verified that the City inputted
           information into HUD’s Integrated Disbursement and Information System.
       •   Reviewed independent public auditors’ reports and HUD monitoring reviews.
       •   Selected a non-representative sample of three CDBG-funded activities totaling
           $1,297,252 from a universe of 21 activities totaling $3,429,009 based on large dollar
           amounts to determine whether the activities met at least one of the national
           objectives. We also selected a non-representative sample of three CDBG-funded
           activities totaling $738,944 based on large dollar amounts from the same universe of
           21 activities to determine whether accomplishments met the performance goals
           outlined in the subrecipient agreements.
       •   Selected a non-representative sample of two CDBG-funded activities totaling
           $278,744 from a universe of 21 activities totaling $3,429,009 based on large dollar
           amounts to determine whether the City is adequately monitoring its subrecipients.
       •   Identified activities that were slow to reach completion and/or did not meet goals and
           identified what corrective actions the City was taking to complete activities.
       •   Evaluated the City’s procurement practices through a review of procurements under
           the HOME loan and CDBG infrastructure improvement programs. We reviewed 100
           percent of the procurements of $11,597,912 under the CDBG program, and a non-
           representative sample of six HOME procurements totaling $871,524 from a universe
           of 45 procurements totaling $3,373,725 based on large dollar amounts.
       •   Selected a non-representative sample of five categories of administrative expenses
           excluding payroll totaling $232,511 or 82 percent of the universe totaling $284,158
           based on large dollar amounts and our knowledge of certain categories of
           expenditures that have a higher risk. We evaluated these expenditures to ensure that
           total expenses did not exceed regulatory limits and were reasonable in cost and
           appropriately supported. We also examined job descriptions to identify whether
           responsibilities of staff were commensurate with pay rates and whether there was any
           overlap in responsibilities.


                                                 8
       •   Determined whether $113,268 in CDBG and $4,901,297 in HOME program income
           earned by City had been properly accounted for.
       •   We selected a non-representative sample of six HOME loans totaling $2,212,377
           from a universe of 45 loans totaling $3,000,877 based on recipients receiving multiple
           loans to determine whether loan amounts and restriction periods were calculated in
           accordance with program requirements and the City protected its investment of
           HOME funds, established written loan/subrecipient agreements, appropriately
           monitored the properties, and ensured that tenants were eligible.
       •   Determined whether the City met its matching requirements. We also selected a non-
           representative sample of four loans totaling $1,212,850 in leveraged funds from a
           universe of 11 loans totaling $2,284,970 in leveraged funds based on loans receiving
           the largest amount of leveraging to determine whether the City was leveraging from
           private resources.
       •   Evaluated the City’s progress in its use of HOME funds to develop/rehabilitate
           housing through its loan program. We also evaluated the results achieved by the
           Community Housing Development Organization to develop/rehabilitate housing.

We performed our review in accordance with generally accepted government auditing standards.




                                               9
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                    •   Controls over administrative expenses
                    •   Controls over tracking program objectives
                    •   Controls to ensure that program activities are meeting the national
                        program objectives
                    •   Controls over procurement
                    •   Controls to ensure that the City adequately monitors subrecipient
                        performance
                    •   Controls over matching and leveraging of funds
              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses

              We did not identify any significant control weaknesses in the controls cited
              above.




                                               10
                 APPENDIX

Appendix A

             AUDITEE COMMENTS




                    11
12
